Report No. D2008-046          February 6, 2008




    Defense Finance and Accounting Service
    Compliance with the Debt Collection and
       Improvement Act of 1996 for the
           Department of the Navy
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                             ODIG-AUD (ATTN: Audit Suggestions)
                             Department of Defense Inspector General
                             400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms

CDS                   Contractor Debt System
DCPS                  Defense Civilian Pay System
DCIA                  Debt Collection Improvement Act of 1996
DCM                   Debt & Claims Management
DDMS                  Defense Debt Management System
DFAS                  Defense Finance and Accounting Service
DMO                   Debt Management Office
DoD FMR               Department of Defense Financial Management Regulation
DoN                   Department of the Navy
IOOS                  Individual Out-of-Service
MOCAS                 Mechanization of Contract Administration System
RAO                   Referring Accounting Office
TIN                   Taxpayer Identification Number
TROR                  Treasury Report on Receivables Due from the Public
                              INSPECTOR GENERAL
                             DEPARTMENT OF DEFENSE
                              400 ARMY NAVY DRIVE
                         ARLINGTON, VIRGINIA 22202-4704




                                                                          February 6, 2008

MEMORANDUM FOR DIRECTOR, DEFENSE FINANCE AND ACCOUNTING
                 SERVICE
               NAVAL INSPECTOR GENERAL

SUBJECT: Report on Defense Finance and Accounting Service Compliance with the
         Debt Collection and Improvement Act of 1996 for the Department ofthe
         Navy (Report No. D-2008-046)


      We are providing this rep0l1 for review and conmlent. We considered
management comments on a draft of this report when preparing the final rep0l1.

        DoD Directive 7650.3 requires that all recommendations be resolved promptly.
Comments received from the Columbus and Denver Defense Finance and Accounting
Service offices were pm1ially responsive. We request additional comments on
Recommendations AI.b, B.I and B.2 by March 6, 2008. Recommendation AI.c. was
deleted. See the Finding section for the deleted recommendation.

        If possible, please send management comments in electronic format (Adobe
Acrobat file only) to Audclev@dodig.mil. Copies of the management comments must
contain the actual signature ofthe authorizing official. We cmmot accept the I Signed I
symbol in place of the actual signatnre. If you arrange to send classified comments
electronically, they must be sent over the SECRET Intemet Protocol Router Network
(SIPRNET).

         We appreciate the courtesies extended to the staff. Questions should be directed
to Mr. Edward A Blair at (216) 706-0074, ext. 226 or Ms. Laura J.S. Croniger at (216)
706-0074, ext. 227. See Appendix C for the report distribution. The team members are
listed inside the back cover.

                      By direction ofthe Deputy Inspector General for Auditing:


                                   !~              a· /?1rwJv
                                   Patricia A. Marsh, CPA
                           Assistant Inspector General and Director
                             Defense Financial Auditing Service
Table of Contents

Executive Summary                                                           i

Background                                                                  1

Objectives                                                                  2

Review of Internal Controls                                                 3

Findings
     A.    Contractor Debt at DFAS Columbus Debt Management Office          4
     B.    Individual Out-of-Service Debt at DFAS Denver                   10
     C.    Individual In-Service Debts Processed at DFAS Payroll Offices   15
     D.    Reporting and Archiving Navy Public Debt at DFAS Cleveland      20

Appendix
     A. Scope and Methodology                                              23
     B. Statistical Sampling Methodology                                   25
     C. Report Distribution                                                27

Management Comments
     Defense Finance and Accounting Service Indianapolis                   29
     Defense Finance and Accounting Service Arlington                      36
Background

           Defense Finance and Accounting Service (DFAS) Cleveland provides finance and
           accounting services to the Department of the Navy (DoN). These include the
           consolidation and reporting of its outstanding public debt (Accounts Receivable),
           which is included in the “Treasury Report on Receivables Due from the Public”
           (TROR). Accounts Receivable arise from claims to cash or other assets.
           Accounts Receivable include, but are not limited to, monies due for indebtedness.

           The March 31, 2006 TRORs prepared for the Navy General Fund and the Navy
           Working Capital Fund reported a total of $3.7 billion in DoN public debt. The
           Debt Collection Improvement Act of 1996 and other pertinent regulations provide
           guidance on how to manage and report DoN public debt.

           Debt Collection Improvement Act of 1996. A goal of the Debt Collection and
           Improvement Act of 1996 (DCIA) is to maximize collection of delinquent debt 1
           owed to the Federal Government. Specifically, the DCIA ensures “quick action
           to enforce recovery of debts and the use of all appropriate collection tools.”
           Under this act, agencies are required to notify and transfer delinquent debts more
           than 180 days old to the Department of the Treasury in an effort to offset or
           reduce any future government payments made to the debtor. The DCIA also
           requires agencies to obtain a taxpayer identification number from entities doing
           business with that agency.

           Treasury Report on Receivables Due from the Public. The TROR is a report
           on the status of the Federal Government’s public debt portfolio. 2 It is prepared in
           accordance with the requirements of the DCIA. As mentioned above, DFAS
           Cleveland prepares TRORs quarterly to report the status of outstanding DoN
           public debt associated with the General Fund and the Working Capital Fund
           accounts.

           The Navy General Fund is made up of appropriated 3 DoN funds that support
           overall Departmental operations. The second quarter FY 2006 Navy General
           Fund TROR reported $3.6 billion for DoN public debt. The Navy Working
           Capital Fund is a revolving 4 fund that supports the operating forces of the Navy
           and Marine Corps. The second quarter FY 2006 Navy Working Capital Fund
           TROR reported $64.3 million for DoN public debt.



1
    Delinquent debt refers to a debt that has not been paid by the due date specified by the agency’s initial
    written demand for payment.
2
    The TROR only reports non-tax-related public debts.
3
    Appropriated funds are directed from Congress and comprise the DoN General Fund account structure.
4
    A revolving fund is an account or fund in which all income is derived from its operations and is available
    to finance the fund's continuing operations without fiscal year limitations. The purpose of the revolving
    fund is to improve cost awareness and to promote cost consciousness.

                                                         1
    DFAS Columbus Debt Management Office. The DFAS Columbus Debt
    Management Office (DMO) is responsible for managing and reporting DoD
    contractor debt. DMO uses the Contractor Debt System and the Mechanization of
    Contract Administration System to record and report public debt due from
    government contractors. DMO reports this information on the Monthly Debt
    Management Report.

    DFAS Denver Debt and Claims Management Office. DFAS Denver Debt and
    Claims Management Office maintains Individual Out-of-Service public debt
    records in the Defense Debt Management System. These records serve as the
    subsidiary ledgers for Accounts Receivable balances provided to the DFAS
    Cleveland departmental-level accounting office for preparation of the TROR.
    The Debt and Claims Management Office is responsible for managing and
    reporting DoD out-of-service military and civilian debt.

    DFAS Charleston and DFAS Pensacola. DFAS Charleston and DFAS
    Pensacola record and report current and former DoD civilian employee public
    debt in the Defense Civilian Pay System (DCPS). These DFAS centers are
    responsible for managing and reporting Individual In-Service Accounts
    Receivable records contained in DCPS. DCPS records should provide the current
    status of DoD public debt due from current and former DoD civilian employees.

    DFAS Cleveland Departmental Reporting Office. DFAS Cleveland
    Departmental Reporting Office gathers DoN public debt from the sites mentioned
    above. DFAS Cleveland then prepares the DoN TROR and provides it to the
    Department of Treasury. Table 1 shows the DFAS sites with corresponding
    findings and systems used to manage debt files.

             Table 1. DFAS Sites and the Corresponding Systems
     Finding         DFAS Site                      System
                                       Contractor Debt System and
        A     Columbus                 Mechanization of Contract
                                       Administration System
        B     Denver                   Defense Debt Management System
        C     Charleston & Pensacola Defense Civilian Pay System
                                       Reports DoN public debt data
        D     Cleveland                received from the various sites
                                       mentioned above

Objectives

    Our overall audit objective was to determine whether DFAS was effectively
    complying with DCIA as it related to Department of Navy accounts. Specifically,
    we attempted to determine whether DFAS was managing DoN public debts
    properly and reporting them in compliance with established guidance. We also

                                       2
     evaluated the managers’ internal control program as it related to the overall audit
     objectives at DFAS and Navy organizations. See Appendix A for a discussion of
     the scope and methodology related to the objectives.


Review of Internal Controls

     Material internal control weaknesses were identified for DFAS sites as defined by
     DoD Instruction 5010.40, “Managers’ Internal Control Program Procedures,”
     January 4, 2006. DFAS did not have adequate internal controls to comply with
     the laws and regulations related to reporting public Accounts Receivable (debt)
     for both Navy General Fund and Navy Working Capital Fund. Specifically,
     controls are needed to:

        •   ensure that all DoN debt files in the Contractor Debt System have a
            taxpayer identification number, are transferred to the Department of the
            Treasury as appropriate, and are adequately safeguarded;

        •   ensure that all DoN debt files in the Defense Debt Management System
            are validated in a reasonable time period and include all substantiating
            records for “financial hardship” and “bankruptcy” status debts;

        •   ensure that all DoN debt files in the Defense Civilian Pay System include
            all substantiating records, are researched effectively to ensure proper
            classification, and have demand letters sent in a timely manner; and

        •   ensure that Accounts Receivable are accurately recorded on the TROR
            and that Individual In-Service Debt data are accurately archived.

     Implementing Recommendations A.1, A.2, B, C, and D will improve DFAS
     controls over the recording, reporting, and collection of DoN public Accounts
     Receivable. A copy of the final report will be provided to the DFAS senior
     officials responsible for the managers’ internal control program.




                                          3
          A. Contractor Debt at DFAS Columbus Debt
             Management Office
                   DFAS Columbus Debt Management Office (DMO) did not have adequate
                   controls to ensure that debt files were processed in accordance with the
                   DCIA and other pertinent guidance. DMO processes were ineffective
                   because they did not:

                       •   require taxpayer identification numbers (TIN),

                       •   transfer debt files to Department of the Treasury as appropriate,
                           and

                       •   adequately safeguard debt file records.

                   As a result, DMO is not fully compliant with the DCIA, the Federal
                   Acquisition Regulation, and DoD Financial Management Regulation
                   (DoD FMR). This hinders DMO’s ability to collect DoN public debts and
                   properly report account receivable balances.


DFAS Columbus Debt Management Office

          DMO uses the Contractor Debt System (CDS) to perform a variety of debt
          management functions associated with delinquent contractor debts exceeding
          $600. 5 DMO receives delinquent debt information from a referring accounting
          office (RAO) and prepares a monthly report for the RAO that should allow for
          reconciliation to its general ledger. The RAO is responsible for initiating debt
          collection and issuing a demand letter within 90 days of when a debt is
          categorized as delinquent. After 90 days, the RAO transfers the debt information
          and collection actions to the DMO; however, the RAO retains responsibility for
          recording and reporting the contractor debts as Accounts Receivable. We
          selected a sample of debts that were in CDS as of March 31, 2006. See
          Appendix B for a discussion of our sample methodology.




5
    Per DoD FMR Volume 10, Chapter 18, the minimum amount of debt that may be referred to the DFAS
    Columbus is $600.

                                                   4
        We selected a sample of 134 contractor debt files processed by DMO and tested
        them for compliance with the DCIA, the Federal Acquisition Regulation, and the
        DoD FMR. Table 2 shows the results of the 134 contractor debt files tested.

              Table 2. Summary of all 134 Contractor Debt Files Tested

Noncompliant Debt Files                                                    58
Missing Debt Files                                                          3
Compliant Debt Files                                                       73
Total Debt Files Tested                                                   134




Table 3 summarizes the 58 contractor debt files we identified as noncompliant. The
“Issues by Category” column assigns a letter to each noncompliance issue identified.
These letters are used again in Table 4.


    Table 3. Summary of the 63 Noncompliant Contractor Debt Files Identified
Issues by                                                                           Total Debt
                            Noncompliance Issue Identified
Category                                                                              Files
    A        Missing Taxpayer Identification Number
                                                                                        33
             Missing Taxpayer Identification Number and Sent to Department of the
    B        Treasury Late                                                               6

    C        Sent to Department of the Treasury Late
                                                                                        19

             Total Noncompliant Debt Files
                                                                                        58




                                                  5
           Some of the 58 contractor debt files failed on one or more of the attributes tested.
           Table 4 summarizes the number of individual attribute compliance issues
           identified in each noncompliant debt file.

               Table 4. Summary of Compliance Issues Identified by Attribute
                                                           Debt Files
                 Issues by         Debt Files
                                                          Sent Late to            Total
                 Category         Missing TINs
                                                           Treasury
                    A                     33
                    B                      6                    6
                    C                                          19
                   Total                 39                    25                  64

Debt File Information and Processing

           Taxpayer Identification Numbers. Thirty-nine debt files tested did not include
           the required Taxpayer Identification Number (TIN). 6 The DCIA, DoD FMR, and
           “Money and Finance,” section 7701, title 31, United States Code all require
           Federal agencies to obtain a TIN for contractors doing business with the agency,
           and the TIN must be included in the supporting documentation (excluding foreign
           debts). DMO accepted 39 files without TINs, rather than returning them to the
           RAO. DMO must require TINs for all debt files to verify contractor validity.
           Also, TINs are necessary for the issuance of an “IRS Cancellation of Debt Form
           1099-C,” if a debt is determined to be uncollectible and therefore should be
           written off by the agency. Form 1099-C is filed with the Internal Revenue
           Service when an indebtedness of at least $600 is canceled. This canceled debt
           must be reported as income by the debtor. The form must include the name,
           address, and TIN of the debtor. DMO must ensure that TINs are included in all
           debt files. If TINs are not included, the file should be returned to the RAO, or
           other research should be conducted to ensure compliance with the TIN
           requirements. As a result of our audit work, DMO did conduct research and
           found TINs for 26 additional debt files. We did not attempt to verify the
           additional TIN information.

           Managing and Transferring Debt Files. For 25 debt files, DMO did not
           immediately transfer debts to the Department of the Treasury for collection after
           90 days. The DoD FMR, volume 10, “Contract Payment Policy and Procedures,”
           chapter 18, “Contractor Debt Collection,” requires DMO to transfer public debts
           to Department of the Treasury for collection after 180 days of being delinquent.
           Procedures should be in place to require the transfer of debts from DMO to
           Department of the Treasury within the established timeframe. If debts are not
           eligible for transfer to Department of the Treasury, DMO must maintain adequate
6
    A Taxpayer Identification Number is a nine-digit number which is either an Employer Identification
    number or a Social Security number

                                                      6
support for this classification. Debts that are not eligible for transfer to
Department of the Treasury include debts that:

   •   are in litigation or foreclosure,

   •   will be disposed of under an approved asset sale program,

   •   have been referred to a private collection contractor for a period of time
       acceptable to Department of the Treasury,

   •   are at a debt collection center for a period of time acceptable by
       Department of the Treasury,

   •   will be collected under internal offset procedures within 3 years of when
       the debt first became delinquent, or

   •   are exempt by Department of the Treasury based on a determination that
       the exemption is in the best interest of the United States.

DMO did not adequately track debts eligible for referral to Department of the
Treasury. DMO needs to improve its debt-tracking procedures to help improve
the collection and reporting of debts.

As a result of our audit work, DMO produced additional documentation not
previously provided to support some of the cited files. After reviewing this
additional support, we were able to verify that out of the original 25 debt files sent
late to the Department of the Treasury, 6 of the files were actually transferred
within the required timeline. DMO should ensure that all debt file documentation
supports the current status.

Availability of Records. DMO did not provide any supporting documentation
for three contractor debt files tested. The debt associated with the missing files
totals $2.4 million. The inability to locate these debt files impedes substantiating
and collecting valid debts.

The DoD FMR requires organizations to retain supporting documents or images
for 6 years and 3 months. DMO stated that it was aware of the missing
supporting documentation. However, it did not take effective actions to validate
and collect these debts. DMO was responsible for these debt files for more than a
year, but it took no action to gather more information in order to start the
collection process. Procedures should be in place that require the periodic review
of debt files to ensure that collections are being aggressively pursued. As a result
of our audit work, DMO found supporting documentation for one debt file valued
at $1,136.




                                       7
Other Matters of Interest – Demand Letters

     DFAS Columbus uses Mechanization of Contract Administration Services
     (MOCAS) to process amounts due to DoD from vendors. These usually result
     from overpayments to vendors. We tested a sample of 52 MOCAS transactions
     reported on the March 31, 2006 TROR. The DoD FMR, volume 10, “Contract
     Payment Policy and Procedures,” chapter 18, “Contractor Debt Collection” states,
     “Any available documentation that substantiates the indebtedness should be
     included with the demand letter.” DFAS Columbus did not follow the
     requirements of this regulation in 32 out of 52 of the transactions tested
     (62 percent). DFAS Columbus issued demand letters to contractors stating that
     documents were available for review upon request, rather than attaching the
     documents that supported the debt amounts, as required by the regulation. While
     there were no instances of noncompliance with the DCIA, the DoD FMR requires
     that indebtedness be substantiated to the contractor. Compliance with this
     regulation should improve the likelihood of collection. We suggest that DFAS
     Columbus consider revising its demand letter process to be in full compliance
     with the DoD FMR. See Appendix B for a discussion of our sample
     methodology.


Recommendations, Management Comments, and Audit
  Response

     Deleted Recommendation. As a result of management comments, we deleted
     draft Recommendation A.1.c.

     A.1. We recommend that the Director, Defense Finance and Accounting
     Service Columbus review Debt Management Office debt files to ensure that:

            a. All non-foreign debt files include a taxpayer identification number.

     Management Comments. The Director, Corporate Reporting, Standards and
     Compliance concurred. The Debt Management Office will require technicians to
     validate the existence of taxpayer identification numbers on debt referrals or take
     steps to obtain one if it is not included. DFAS will include obtaining non-foreign
     taxpayer identification numbers in its published desk procedures. DFAS
     identified an estimated completion date of May 1, 2008.

           b. Eligible debt files more than 90 days old are referred to
     Department of the Treasury for further collection action.



                                          8
Management Comments. The Director, Corporate Reporting, Standards and
Compliance nonconcurred. He cited 31 Code of Federal Regulation Part 901.1,
“Agencies shall transfer to the Secretary any debt that has been delinquent for a
period of 180 days or more so that the Secretary may take appropriate action to
collect the debt or terminate collection action.” He stated that the requirement
does not apply to debts that will be collected under internal offset procedures
within three years. DFAS considers this recommendation closed.

Audit Response. The Director, Corporate Reporting, Standards and Compliance
comments are nonresponsive. The period of 180 days begins when a debt first
becomes delinquent at the referring accounting office. If the debt is not collected
within 90 days, the referring accounting office transfers the debt to DFAS
Columbus Debt Management Office. From that point, DFAS has only 90 days
left to refer the debt to the Department of Treasury. We identified debts that were
more than 180 days old. We request that DFAS reconsider its position and
provide comments on the final report. Specifically, DFAS should reconsider what
procedures it has in place to ensure that eligible debts more than 180 days old are
sent to the Department of Treasury for further collection action. We agree that
referral procedures do not apply to debts being collected under internal offset
procedures.

A.2. We recommend that the Director, Defense Finance and Accounting
Service Columbus establish procedures requiring Debt Management Office
to ensure that:

       a. All debt files have complete supporting documentation and that the
documentation is appropriately safeguarded for the required retention
period of 6 years and 3 months.

Management Comments. The Director, Corporate Reporting, Standards and
Compliance concurred. The Debt Management Office has asked its Training and
Procedures Office to implement a requirement to conduct an annual inventory for
closed receivables and validate that the files have complete supporting
documentation. The new requirement will also include a retention period of six
years and three months. DFAS identified an estimated completion date of May 1,
2008.

       b. Debt file reviews are completed periodically to verify that the
current status of every debt file is appropriate and that collection actions are
being aggressively pursued.

Management Comments. The Director, Corporate Reporting, Standards and
Compliance concurred. He stated that the Debt Management Office will update
the Internal Controls Review Matrix to include a goal of monthly reviews of
debts. This monthly review will validate the existence of sufficient supporting
documentation for the current debt status and the appropriateness of actions taken
to date. DFAS identified an estimated completion date of April 1, 2008.

                                     9
     B. Individual Out-of-Service Debt at DFAS
        Denver
            DFAS Denver Debt and Claims Management Office (DCM) did not
            adequately process debts due from former DoD employees, also known as
            “Individual Out-of-Service (IOOS) Debts”. Specifically, we tested
            130 IOOS debt transactions and determined that:

                •   45 debt files were suspended more than 90 days for validation, and

                •   13 debt files did not contain substantiating records to support their
                    classification as either “financial hardship” or “bankruptcy.”

            Debt files were not adequately processed because DCM did not establish a
            reasonable time limit for validating them. As a result, it took an average
            of 67 days to validate a debt file. Also, DCM did not have supporting
            documentation for debts classified as financial hardship or bankruptcy
            because standard operating procedures were not available. Debts
            classified as financial hardship or bankruptcy were suspended up to
            6 months without justification and were therefore at greater risk of being
            uncollectible.




DFAS Denver Debt and Claims Management Office

     DCM is responsible for managing IOOS debt amounts that are not associated with
     an active payroll account in any DoD system. Debts in this category must be at
     least $225 and are transferred by another DoD agency to DCM, usually via the
     Defense Debt Management System (DDMS). We selected a sample of records
     that were in DDMS as of March 31, 2006. See Appendix B for a discussion of
     our sample methodology.


Processing and Validating of Individual Out-of Service Debt

     We tested a sample of 130 DDMS transactions and found that DCM was not fully
     compliant with the DCIA and other established guidance for the IOOS debts.
     Specifically, DCM did not take quick action to facilitate recovery of debts.

     DCM receives IOOS debts either manually or through a system interface.
     Manually transferred debts are validated by the DFAS sites and are sent to DCM
     for further collection action. Interface debts are not validated and come directly


                                          10
    into DDMS. DCM receives approximately 95 percent of the potential debts via
    interface and immediately suspends collection action in order to validate the debt.

    It took an average of 67 days for DCM to validate a debt. To compute the 67-day
    average, we took the difference between the debt-establishment date and demand-
    letter-sent date and divided the total number of days by the number of our sample
    items. We reviewed the DCM’s “Debt Establishment Procedure,” and there is no
    stated guidance specifying the length of time for the validation process.
    However, the DCIA requires agencies to ensure quick collection action to
    facilitate the recovery of debts. By suspending these debts without a deadline,
    DCM is not meeting the intent of the DCIA “quick collection” requirement. For
    example, 45 debt files were suspended for more than 90 days. DCM’s process of
    suspending debt files without a deadline impedes compliance with the DCIA.
    DCM should re-examine its validation procedures to better comply with the
    “quick collection” requirement of the DCIA. Validation procedures should be
    completed within a reasonable amount of time. For example, several debt files
    were validated within 10 days. Establishing a deadline for when debt validation
    should be completed—for example, within 10 working days—would ensure a
    more aggressive collection process.


Supporting Hardship Files and Bankruptcy Debts

    Financial Hardship. DCM did not substantiate files classified as financial
    hardship. In some files, DCM classified debts as financial hardship based on
    phone calls with the debtors and did not require further supporting evidence.
    DCM may classify debts as a financial hardship case by coding the debt as “FH”
    within DDMS. Once coded as “FH,” all collection actions are suspended for up
    to 6 months under DCM procedures. Although the DoD FMR allows DCM to
    suspend the account if the debtor’s financial condition is expected to improve,
    without verification of this condition the suspension is not warranted.

    The DoD FMR, volume 5, “Disbursing Policy and Procedures,” chapter 31, “Debt
    Compromise: Suspending and Terminating Collection Activity; Debt Write-Off
    and Retention,” states that if a debtor is unable to pay the full amount due in a
    reasonable time using enforced collection, the following factors should be
    considered in determining the debtor’s ability to pay:

           •   current financial statement from the debtor, or

           •   credit reports and other financial information.

    This provides examples of source documentation that DCM should obtain when
    establishing that a debt file qualifies as a financial hardship case. The DCIA
    requires quick action to enforce the recovery of debts. The practice of suspending
    debts without sufficient supporting documentation brings into question the
    validity of the hardship and does not ensure quick action. Without sufficient
                                        11
   evidence, DCM personnel cannot determine whether the classification for
   financial hardship is accurate and the subsequent suspension is necessary. DCM
   should obtain other independent supporting documentation and should not allow
   debts to be suspended for up to 6 months based solely on phone conservations.

   Bankruptcy Files. DCM did not provide court-ordered bankruptcy records to
   support the bankruptcy classification. DCM relied on system coding as support
   for debt suspension instead of obtaining external support. All files coded as
   bankruptcy and financial hardship in DDMS should have independent supporting
   documents.

   As a result of our audit work, DCM provided additional documentation not
   available during the audit to support the cited files. After reviewing the
   documents, we verified that only 5 of the original 13 debt files supported their
   financial hardship or bankruptcy classifications.


Management Comments on the Finding and Audit Response

   Management Comments. The Director, Corporate Reporting, Standards and
   Compliance nonconcurred with the identified findings and stated that the debts
   established in DDMS are suspended for a reasonable time period. The auditors
   were provided bankruptcy information and informed that additional bankruptcy
   files were held at the DFAS Denver General Counsel office. Concerning
   financial hardship cases, DDMS fully documented all the actions taken, and credit
   reports were pulled where appropriate. The Denver Debt and Claim Management
   Office is in compliance with the DCIA. In reference to the length of time it took
   to validate debts, the Director said that the 67-day average is a manpower issue
   but is not a problem. He said that the extra time allows all documents to post so
   that the office does not collect invalid debts. He added that “A 2-month delay
   does not impede collection when the law allows 10 years to collect the debt.”

   Audit Response. The DFAS Denver Debt and Claims Management Office did
   not provide credit reports or court-ordered bankruptcy documents to support all
   cases. Without sufficient evidence, we could not determine whether the
   classification for financial hardship or bankruptcy was warranted. We were not
   informed that the DFAS Denver General Counsel office also maintains files on
   bankruptcy cases. If bankruptcy claim documents are stored at the DFAS General
   Counsel office, these documents should be available to auditors. Concerning the
   suspension of debt files for validation purposes, there are no regulations in place
   that state how much time DCM has to validate a debt. In 45 cases, it took DCM
   more than 90 days to validate a debt. In other cases, it took DCM only 10 days to
   validate a debt. We agree that it is important to validate a debt before it is sent to
   the debtor. However, establishing a deadline for when debt validation should be
   completed—for example, within 10 working days—would ensure a more
   aggressive collection process. We believe it is important to have a specific
   timeframe for DCM to validate debts. If DCM establishes a reasonable standard
                                        12
    processing time within its operating procedures, it would be considered
    responsive to the intent of our recommendation. Debts would be collected faster
    with an established timeframe for validation.


Recommendations, Management Comments, and Audit
  Response

    B. We recommend that the Director, Defense Finance and Accounting
    Service Denver, require the Debt and Claims Management Office establish
    procedures to:

           1. Ensure that all debt files accepted into the Defense Debt
    Management System are validated within a specific and reasonable
    timeframe that also meets the “quick collection” requirement of the Debt
    Collection and Improvement Act of 1996.

    Management Comments. The Director, Corporate Reporting, Standards and
    Compliance nonconcurred and stated, “We surpass all required timelines within
    the DCIA 1996. . . . The primary timeline within the DCIA 96 requires that all
    debts be valid and legally enforceable in the amount stated and are referred to
    Treasury for additional collection action when the debt becomes 180 days
    delinquent.” He emphasized that DFAS is focused on “collecting valid debts
    amounts, not burdening our former military members with erroneous bills.”
    DFAS considers this recommendation closed.

    Audit Response. The Director, Corporate Reporting, Standards and Compliance
    comments are nonresponsive. We request that DFAS designate a timeframe for
    the debt validation process. DFAS Denver has validated debts as quickly as 10
    days from acceptance and in some cases debt validation has taken longer than 90
    days. Defining a timeframe for debt validation would ensure a more aggressive
    collection process. Requiring a timeframe for the debt validation process would
    not burden former military members with erroneous bills as stated by DFAS. It
    would only require DFAS to speed up the validation process to ensure a more
    timely collection process. We request that DFAS reconsider its position and
    provide comments to the final report.

          2. Ensure that independent supporting documentation is obtained to
    substantiate the financial hardship or bankruptcy classification of debt files
    and that all source documentation is adequately maintained within the debt
    file.

    Management Comments. The Director, Corporate Reporting, Standards and
    Compliance nonconcurred and stated that suspension of an account is allowed for
    Financial Hardship. He said that credit reports are pulled and that the decision to
    suspend an account is documented in DDMS. He added that there is no

                                        13
regulatory requirement to keep files containing old credit reports. Regarding
bankruptcy files, he stated that “all documents required to substantiate the
bankruptcy claim on our debts are also kept within the DFAS General Counsel
office.” DFAS considers this recommendation to be closed.

Audit Response. The Director, Corporate Reporting, Standards and Compliance
comments are nonresponsive. DFAS should substantiate all financial hardship
cases with appropriate documentation. Placing a debt file in a financial hardship
status based on a phone conversation is not appropriate. For cases where debt
files are not supported, DFAS should have procedures to substantiate the financial
hardship by maintaining adequate documentation, including, but not limited to,
credit reports. DFAS stated it also obtains bankruptcy claim documents to verify
bankruptcy status. During our audit, the majority of the files had either credit
reports or bankruptcy claim documents to substantiate the status. However, some
files did not contain credit reports or court-ordered bankruptcy documents. DFAS
management comments stated that “all documents required to substantiate the
bankruptcy claim on our debtors are also kept within the DFAS General Counsel
office.” This information was not provided to us. If bankruptcy claim documents
are kept in the DFAS General Counsel office, these documents should be
available to auditors and would support the bankruptcy status. We request that
DFAS reconsider its position and provide comments to the final report for
establishing procedures to maintain documents to support debt files in a financial
hardship or bankruptcy status.




                                    14
         C. Individual In-Service Debts Processed
            at DFAS Payroll Offices
         DFAS payroll offices did not properly process the debt files or include
         sufficient supporting documentation for debts owed by civilian employees,
         also known as “Individual In-Service Debt.” Specifically, DFAS payroll
         offices:

             •   misclassified 14 debt files that were actually paid, waived, or
                 determined to be invalid;

             •   did not resume collection action on 7 suspended debt files;

             •   could not adequately support debt amounts reported in 7 debt files;
                 and

             •   did not properly issue demand letters for 2 debt files.

         Debt files were not properly managed because DFAS payroll offices did
         not implement procedures necessary to ensure compliance with applicable
         guidance. As a result, DoN Individual In-Service Debts are at risk of
         becoming uncollectible and overstating Accounts Receivable.


Defense Civilian Pay System

  DFAS payroll offices at Charleston, South Carolina and Pensacola, Florida
  process DoN debts owed by civilian employees. These debts are referred to as
  Individual In-Service Debts. The payroll offices use the Defense Civilian Pay
  System (DCPS), the standard DoD civilian pay system. DCPS maintains time and
  attendance data, pay and leave entitlement records, deductions and withholdings,
  and any related debts owed. Individual In-Service Debts are amounts due to DoD
  from active civil service employees or separated civilian employees who make
  installment payments. Individual In-Service Debts occur for several reasons,
  including overpayments and overdue overseas travel advances. We selected a
  sample of debts that were in DCPS as of July 31, 2006. See Appendix B for a
  discussion of our sample methodology.

Criteria for Managing Debt Files

  Delinquent Debt. The DoD FMR volume 4, “Accounting Policy and
  Procedures,” chapter 3, “Receivables,” defines a delinquent account receivable as
  a receivable that has not been paid by the date specified in the initial written
  demand for payment or applicable agreement without other satisfactory payment
  arrangements having been made. Office of Management and Budget Circular

                                       15
           A-129, “Delinquent Debt Collection,” states that as soon as an account becomes
           delinquent, agencies should send demand letters to the debtor.

           Audit Trails. According to the DoD FMR, volume 1, “General Financial
           Management Information, Systems and Requirements,” chapter 3, “Accounting
           Systems Conformance, Evaluation, and Reporting,” a key test of an audit trail is
           whether tracing the transaction forward from the source or back from the result
           will permit verification of the amount recorded or reported.

           Defense Accounting Service Guide 7900.4G, “Audit Trail and System Control,”
           November 2004, requires all transactions, including computer-generated
           computations, be traceable to individual source records.


Individual In-Service Debt File Information and Processing

       We analyzed 280 Individual In-Service Debt files for compliance with the DCIA and
       various regulations. We identified a total of 30 debt files that did not comply with
       established guidance because DFAS payroll offices misclassified debts, left debts in
       suspense, could not support debt amounts, and did not issue demand letters in a
       timely manner.

       Misclassified Debts. DFAS payroll offices misclassified 14 debt files totaling
       $39,966 as Accounts Receivable, even though the debts had been paid, waived, or
       determined to be invalid. These 14 debt files had the following problems:

                    •   five debt files were waived 7 or canceled;

                    •   two debt files represented Individual Out-of-Service 8 Debts and
                        should have been transferred to DFAS Denver;

                    •   two debt files represented the same employee debt, and one should
                        have been removed from DCPS;

                    •   two debt files were identified as invalid, but no further explanation
                        was provided;

                    •   one debt file was identified as invalid because DFAS payroll offices
                        had incorrectly classified an employee as separated;



7
    DoD FMR, Volume 8, “Civilian Pay Policy and Procedures,” defines a waiver as the “cancellation,
    forgiveness, or non-recovery of a debt owed by an employee to an agency as permitted or required by
    law.” Therefore, once a debt is waived, it must be reduced to zero and no longer reported as an accounts
    receivable.
8
    Out-of-Service Debts are amounts due to the DoD by individuals who do not have an active payroll
    account in any DoD system.

                                                      16
           •   one debt file was fully paid but remained as an active debt in DCPS;
               and

           •   one debt file included two separate debts for the same employee. The
               first was less than $6, and therefore no collection action was pursued.
               The second debt should have been transferred to DFAS Denver
               because the employee was no longer a civilian employee.

DFAS payroll offices reduced the three invalid debt file balances to zero after the
audit team brought the individual debts to their attention. DFAS payroll offices
determined that the debts were inaccurately established and should have been
removed from DCPS. DFAS payroll offices do not have procedures in place to
ensure the proper classification of debts. This prevents them from effectively
collecting debts and properly recording the debts as Accounts Receivable.

Suspended Debt Files. When a debt file is suspended, all collection actions are
discontinued. DFAS payroll offices erroneously left seven debt files valued at $4,511
in suspense for as long as 3 years. DFAS payroll offices did not know why five of
these debt files were suspended and provided the following explanations for
suspending the other two debt files:

   •   One debt was suspended when an individual entered a Leave-Without-Pay
       status. However, collection actions were not resumed when the individual
       returned to an Active Pay status.

   •   One debt was suspended when the individual’s account was transferred from
       one data system to another. Debt collection actions were not resumed after
       the transfer was complete.

Collection actions resumed for all seven suspended, debt files after the audit team
brought these problems to the DFAS payroll offices attention. DFAS payroll offices
do not have procedures in place to track debts that are in suspense. This prevents
DFAS payroll offices from adequately collecting debts.

Supporting Documentation. DFAS payroll offices could not provide support for
three debt files and had only partial support for four debt files. DFAS
Guide 7900.4G, “Audit Trail and System Control,” specifies that supporting
documentation must be traceable to the individual source records. Without
supporting documentation, public debts have a greater chance of not being collected.
Four debt files were incomplete because demand letters were not included. Demand
letters are proof that the debtor received notification of an outstanding debt and begin
the debt collection process. DFAS payroll offices’ inability to provide complete
supporting documentation for seven debt files indicates that employee debt files are
not being monitored to determine debt validity and to ensure that collection actions
have appropriately begun.



                                         17
Timely Demand Letters. DFAS did not properly send demand letters for two debt
files. The DoD FMR, volume 5, “Disbursing Policy and Procedures,” chapter 28
“General Provisions on Indebtedness,” states that a demand letter should be issued as
soon as the status of the debt is confirmed. The issuance of a demand letter formally
notifies the debtor and begins a 60-day repayment period. If the demand letter is not
sent promptly, it delays the collection process. In one instance, DFAS never sent a
demand letter for a $1,195 debt that was originally recorded 3 years earlier. DFAS
stated that the debt was placed in suspense and never restarted, but no reason was
given to explain why the debt was left in suspense. After the audit team brought this
to the DFAS payroll office’s attention, DFAS said that the debt file would be
unsuspended and a demand letter sent, thereby starting collection actions. In another
instance, a demand letter was sent 4 months after the debt was confirmed. The DFAS
payroll office did not explain why the demand letter was sent 4 months late but
agreed that it wasn’t timely. DFAS needs to review its processes for issuing demand
letters and placing debt files in suspense.

The DCIA was passed to maximize the collection of delinquent debts owed to the
government by ensuring quick action to enforce recovery of debts, using all available
collection tools. DFAS payroll offices do not have adequate procedures in place to
continuously ensure that debts are valid and actively being collected. Procedures and
system controls were not in place to ensure that debts are current. Most Individual
In-Service Debts are owed by individuals in a Pay status and should be easily
collected. DFAS payroll offices should aggressively monitor all Individual In-
Service Debt to ensure timely collection.


Recommendations and Management Comments

   C. We recommend that the Director, Defense Finance and Accounting
   Service Charleston and Director, Defense Finance and Accounting Service
   Pensacola establish procedures to improve collection processes and reporting
   of Accounts Receivable balances. Specifically, Defense Finance and
   Accounting Service payroll offices should ensure that:

           1. Debt files are routinely reviewed to determine whether the debt
   status indicated in the debt file is accurate and agrees with the debt status
   indicated in the Defense Civilian Pay System. Defense Finance and
   Accounting Service payroll offices should verify that all waived, paid, or
   invalid debts are appropriately recorded in the Defense Civilian Pay System.

   DFAS Indianapolis Comments. The Director, Corporate Reporting, Standards
   and Compliance concurred. He stated, “Payroll management is revising our
   Federal Managers’ Financial Integrity Action (FMFIA) Assessable Unit – Debt
   Processing to include the following control point: quarterly review of debt status
   to ensure accuracy, i.e., status of any invalid, paid-in-full/partial, and any waivers
   received.” DFAS identified an estimated completion date of December 1, 2007.

                                         18
DFAS Arlington Comments. The Deputy Director, Compliance, Standards and
Compliance concurred. He stated, “Payroll management has revised the FMFIA
Assessable Unit for Debt Processing to include controls to ensure quarterly
reviews of debt status are accurate.” This was completed on November 26, 2007.

        2. Debt files that have been suspended are reviewed on a regular basis
to verify that the suspension is still warranted.

DFAS Indianapolis Comments. The Director, Corporate Reporting, Standards
and Compliance concurred. He again stated that payroll management is revising
the FMFIA Assessable Unit – Debt Processing to include a quarterly review of
debt status to ensure any debt suspension or “on-hold” status is still valid.

DFAS Arlington Comments. The Deputy Director, Compliance, Standards and
Compliance concurred. He stated that payroll management revised the FMFIA
Assessable Unit – Debt Processing to include quarterly reviews of debt statuses
for suspensions and “on-hold”. This was completed on November 26, 2007.

       3. Debt files include the necessary supporting documentation to
validate the debt and to verify that collection actions have begun, indicated
by the issuance of a demand letter.

DFAS Indianapolis Comments. The Director, Corporate Reporting, Standards
and Compliance concurred. He again referred to revising the FMFIA Assessable
Unit – Debt Processing to include quarterly reviews of all supporting
documentation to ensure collections have begun.

DFAS Arlington Comments. The Deputy Director, Compliance, Standards and
Compliance concurred. He stated that payroll management revised the FMFIA
Assessable Unit – Debt Processing to include quarterly reviews for supporting
documentation to ensure collection. This was completed on November 26, 2007.

       4. All demand letters are sent in a timely manner and in accordance
with applicable regulations as soon as the status of the debt is confirmed.
Defense Finance and Accounting Service payroll offices should regularly
review the Defense Civilian Pay System to identify debts that have not been
issued a demand letter.

DFAS Indianapolis Comments. The Director, Corporate Reporting, Standards
and Compliance concurred, again referring to revising the FMFIA Assessable
Unit – Debt Processing to include quarterly reviews of all debts to ensure demand
letters are sent timely.

DFAS Arlington Comments. The Deputy Director, Compliance, Standards and
Compliance concurred. He stated that payroll management revised the FMFIA
Assessable Unit – Debt Processing to include quarterly reviews to ensure demand
letters are sent on time. This was completed on November 26, 2007.

                                   19
    D. Reporting and Archiving Navy Public
       Debt at DFAS Cleveland
    DFAS Cleveland Departmental Reporting Office inaccurately reported a negative
    amount of $300,257 on the March 31, 2006 “Treasury Report on Receivables due
    from the Public” (TROR). This total is comprised of accounts payable totaling
    $258,123 and employer contributions totaling $42,134. Accounts payable and
    employer contributions were erroneously included because DFAS Cleveland did
    not have adequate controls over the reporting process. Also, DFAS Cleveland did
    not archive complete Individual In-Service Debt data, because procedures allow
    for DCPS data, including debt data, to be overwritten each pay period. As a
    result, DFAS Cleveland understated its public debt and was not fully compliant
    with the DCIA and the DoD FMR. Also, the lack of proper record retention
    hinders DFAS Cleveland’s ability to support amounts reported on the TROR.


Preparing the TROR at DFAS Cleveland

    Accounts Payable Reported on the TROR. The DoD FMR, volume 4,
    “Accounting Policy and Procedures,” chapter 3, “Receivables,” defines account
    receivable as a debt owed to the DoD from a non-DoD entity. Receivables
    include monies due for indebtedness to the DoD. Examples of indebtedness to
    the DoD include overdue travel advances, dishonored checks, and overpayments.

    DFAS Cleveland Departmental Reporting Office erroneously reported negative
    Accounts Receivable totaling $258,123 in the March 31, 2006 universe of DCPS
    transactions. These transactions should have been reported as accounts payable.
    The DoD FMR, volume 4, “Accounting Policy and Procedures,” chapter 9,
    “Accounts Payable,” states that accounts payable are monies owed to other
    entities for receipt of goods and services, progress in contract performance, and
    rents from the DoD.

    In accordance with these definitions, and based upon our review, the negative
    items identified are accounts payable, not Accounts Receivable, and should not be
    reported on the TROR, which is a Department of the Treasury report used to track
    only public Accounts Receivable. DFAS Cleveland should examine its reporting
    procedures to ensure that accounts payable are not reported on the TROR.

    Employer Contributions Reported on the TROR. DFAS Cleveland
    Departmental Reporting Office erroneously included employer contribution
    amounts on the March 31, 2006 TROR. Employer contributions are the cost of
    employee benefits, such as portions of health insurance premiums paid by the
    agency. Employer contributions are strictly governmental transactions, not public
    transactions, and therefore not subject to reporting on the TROR. The Accounts

                                        20
    Receivable universe of transactions that was provided by DFAS Cleveland
    included Individual In-Service Debt amounts coded with a “U.” This “U”
    represents employer contributions. This code appears on the Accounts
    Receivable universe as either a negative or a positive amount. The negative “U”
    codes are monies owed by the government. The positive “U” codes are monies
    owed to the government. Negative employer contribution amounts totaling
    $55,889 and positive employer contribution amounts totaling $13,755 were in the
    Accounts Receivable universe for Individual In-Service Debt. Neither amount
    should have been reported on the March 31, 2006 TROR or captured in the
    Individual In-Service Debt as Accounts Receivable. DFAS Cleveland
    inaccurately reported DoN public debts. DFAS Cleveland should examine its
    reporting procedures to ensure that it is accurately reporting public Accounts
    Receivable on the TROR.


Archiving DCPS Transactions at DFAS Cleveland

    Archiving Transactions. DFAS Cleveland Departmental Reporting Office does
    not archive complete DCPS data. We requested the March 31, 2006 Accounts
    Receivable universe of transactions in DCPS but were told it was not available.
    The DFAS payroll offices at Pensacola, Florida and Charleston, South Carolina
    use DCPS to process Individual In-Service Debts. DFAS payroll offices send
    complete DCPS transaction data to DFAS Cleveland, which includes social
    security numbers. However, every two weeks, all transaction data in the DFAS
    Pensacola and DFAS Charleston DCPS databases is overwritten with data for
    only the current pay period.

    DFAS Cleveland receives complete DCPS transaction data from the DFAS
    payroll offices, but it removes data considered to be unnecessary, including social
    security numbers. Although DFAS Cleveland does not use social security
    numbers for preparing the TROR, the social security number is necessary for an
    audit trail. Without a social security number, the audit trail is lost because there is
    no link to the supporting documentation. Because DFAS could not provide the
    March 31, 2006 DCPS universe, we arranged to perform audit testing on the
    July 31, 2006 DCPS universe.

    The DoD FMR, volume 1, “General Financial Management Information, Systems
    and Requirements,” chapter 3, “Accounting Systems Conformance, Evaluation,
    and Reporting,” states that a key test of an audit trail is whether tracing the
    transaction forward from the source or back from the result will permit
    verification of the amount recorded or reported. In addition, Defense Accounting
    Service Guide 7900.4G, “Audit Trail and System Control,” requires that all
    transactions, included computer-generated computations, be traceable to
    individual source records. DFAS Cleveland did not maintain an adequate audit
    trail for testing. DFAS Cleveland did not archive complete DCPS data because
    procedures were not in place requiring this data to be archived. DFAS

                                          21
    Cleveland’s lack of archiving makes it difficult to audit its outstanding debts.
    Without complete data, auditors cannot ensure that all amounts reported are
    accurate. DFAS Cleveland further maintains that DCPS users at the DFAS
    payroll offices are responsible for maintaining archived records. While archiving
    may be a function of the DFAS payroll offices, DFAS Cleveland should ensure
    that proper support for amounts it reports is coordinated and maintained in
    conjunction with its subordinate activities.


Recommendations, Management Comments, and Audit
  Response

    D. We recommend that the Director, Defense Finance and Accounting
    Service Cleveland, in coordination with the Defense Finance and Accounting
    Service payroll offices in Charleston and Pensacola, ensure proper public
    debt and Accounts Receivable reporting on the Treasury Report on
    Receivables. Specifically, procedures must be established to ensure that:

          1. Only public debt amounts are included on the Treasury Report on
    Receivables.

    Management Comments. The Director, Corporate Reporting, Standards and
    Compliance concurred. He stated that DFAS Pensacola and DFAS Indianapolis,
    Standards and Compliance will coordinate the effort regarding how DCPS data
    affects the DFAS network. DFAS identified an estimated completion date of
    April 1, 2008.

    Audit Response. Although the Director, Corporate Reporting, Standards and
    Compliance concurred with our recommendation, his comments were partially
    responsive. The coordinated effort between DFAS Pensacola and DFAS
    Indianapolis, Standards and Compliance should ensure that employer contribution
    amounts are excluded from amounts reported on the Treasury Report on
    Receivables. We request that the Director, Corporate Reporting, Standards and
    Compliance provide a proposed date as to when employer contributions will not
    be reported on the Treasury Report on Receivables.

            2. All transactions from supporting systems are archived and
    traceable to the source documentation by specific record numbers, such as a
    social security number.

    Management Comments. The Director, Corporate Reporting, Standards and
    Compliance concurred. He stated that DFAS Cleveland Accounting and
    Operations began archiving the DCPS report in March 2007. This action was
    completed on March 31, 2007.



                                       22
Appendix A. Scope and Methodology
   To analyze Defense Finance and Accounting Service (DFAS) compliance with
   the Debt Collection and Improvement Act of 1996 (DCIA) and other pertinent
   regulations for the Department of the Navy (DoN), we reviewed amounts reported
   by DFAS as DoN public debt on the second quarter FY 2006 Treasury Report on
   Receivables (TROR) totaling $3.7 billion. DFAS uses the TROR to gather
   financial data to be reported as Navy’s Public Receivables. Specifically, we
   reviewed contractor debts, Individual Out-of-Service Debts, and Individual
   In-Service Debts from the DFAS locations and systems described below,
   respectively. We reviewed systems that represented 84 percent of the reported
   amount in the second quarter FY 2006 TROR. Our work focused on debt and
   collection activities at:

          •   DFAS Columbus Debt Management Office for processing Contract
              Debt System (CDS) and Mechanization of Contract Administration
              System (MOCAS) data,

          •   DFAS Denver Debt & Claims Management for processing Defense
              Debt Management System (DDMS) data, and

          •   DFAS Charleston and DFAS Pensacola payroll offices for processing
              Defense Civilian Pay System (DCPS) data.

   Our work also focused on how DFAS Cleveland Departmental Reporting Office
   reports public debt on the TROR.

   Work Performed. To identify the legal requirements, policies, and procedures
   established for debt collection, we reviewed pertinent laws, related federal
   regulations, the DoD Financial Management Regulation, and DFAS procedures.
   To identify the activities undertaken by the DFAS Debt Management Office,
   payroll offices, and Debt and Claims Management, we reviewed debt files,
   demand letters, and related correspondence, and discussed debt collection
   activities with DFAS officials. We then reconciled all the reported amounts from
   these systems to the second quarter FY 2006 TROR for both the Navy General
   Fund and the Navy Working Capital Fund.

   Sample Selections. In selecting debt files for further review, we coordinated
   with the Quantitative Methods Directorate, DoD OIG, in developing the statistical
   sample design. See Appendix B for a discussion of the statistical sampling
   methodology.

   Sample reviews. In reviewing the selected samples, we (1) examined the files
   and the collection activities, (2) determined if the debts were valid, and
   (3) discussed issues and questions related to the debts with DFAS officials.


                                      23
    We performed this audit from April 2006 through May 2007 in accordance with
    general accepted government auditing standards.

    Use of Computer-Processed Data. To achieve the audit objective, we relied on
    computer-processed data contained in the universe of data provided by DFAS
    from CDS, MOCAS, DDMS and DCPS. Nothing came to our attention as a
    result of specified procedures that caused us to doubt the reliability of the
    computer-processed data.

    Testing the reliability of the CDS, MOCAS, DDMS and DCPS systems was not
    an announced audit objective, given the intended use of the data. Therefore, the
    reliability of data has not materially affected the results of the audit. Our audit
    included tests of the data contained in CDS, MOCAS, DDMS and DCPS that
    were compared to other independent data. No material discrepancies were
    detected that would negatively affect our audit results. The level of reliability of
    CDS, MOCAS, DDMS and DCPS data extracted from the database was sufficient
    to achieve specific audit objectives.

    Use of Technical Assistance. Quantitative Methods Directorate provided
    technical assistance in developing the sample design and selecting samples of
    Accounts Receivable transactions. Specifically, Quantitative Methods
    Directorate provided statistical samples for CDS, MOCAS, DDMS, and DCPS.
    See Appendix B for a discussion of the statistical sampling methodology.

    Government Accountability Office High-Risk Area. The Government
    Accountability Office has identified several high-risk areas in DoD. This report
    provides coverage of a DoD financial management high-risk area.


Prior Coverage

    No prior coverage has been conducted on the subject during the last 5 years.




                                         24
Appendix B. Statistical Sampling Methodology

Systems

           We used statistical sampling to efficiently test compliance with the DCIA from
           four systems: Contract Debt System (CDS), Mechanization of Contract
           Administration System (MOCAS), Defense Debt Management System (DDMS),
           and Defense Civilian Pay System (DCPS). For all the systems, transactions
           reported on the TROR for the General Fund or Working Capital Fund were
           included in the sampling process.

CDS

           As of March 31, 2006, CDS had a universe of 816 transactions representing six
           transaction types: Bankruptcy, Dispute, Litigation, Other, Closed and Treasury.
           We tested 134 transactions. Quantitative Methods Directorate considered the six
           types of transactions in the universe for representation in designing the sample.
           Quantitative Methods Directorate provided a statistical sample of 125 out of
           397 non-zero transactions. In addition, the audit team judgmentally 9 selected
           six zero-value transactions (one for each of the six transaction types), and
           three additional transactions that may have not been reported in the TROR for
           testing.

MOCAS

           As of March 31, 2006, MOCAS had a universe of 221 transactions representing
           three transaction types: Closed, Other, and Dispute. We tested 52 sample items.
           Quantitative Methods Directorate considered the three types of transactions in the
           universe for representation in designing the sample and suggested auditing all
           46 non-zero transactions for sampling (by excluding the 175 zero-value
           transactions out of the universe of 221 transactions). In addition, the audit team
           judgmentally selected five zero-value transactions and one additional transaction
           that may have not been reported in the TROR.

DDMS

           As of March 31, 2006, DDMS had a universe of 145,515 Individual Out-of-
           Service Debt transactions. We tested 130 of those transactions. Quantitative
           Methods Directorate designed a statistical sample of 400 transactions, considering
           the dollar amount for representation in designing the sample. The sample was
           selected by transaction line items, instead of by social security numbers. A social

9
    The judgmental sample does not generalize to the universe.

                                                     25
   security number (SSN) could have multiple debts associated with it. Although
   400 transactions were selected for sampling, we only tested 130, due to limited
   resources. We tested all 124 transactions located at DFAS Denver and
   judgmentally selected six transactions from the remaining 276 inactive or off-site
   transactions.

DCPS

   As of July 31, 2006, the DCPS universe consisted of 15,874 transactions traceable
   to 3,980 SSNs. We tested all transactions associated with 280 SSNs.
   Quantitative Methods Directorate designed a sample of 260 SSNs, which included
   180 from the positive-value transactions, 70 from the negative-value transactions,
   and 10 from the zero-value transactions. Quantitative Methods Directorate
   considered the dollar amount for representation in designing the sample and
   whether to use SSNs versus line items. In addition, the audit team judgmentally
   selected 20 additional SSNs with negative transactions to verify that they were
   truly Accounts Receivable, not accounts payable or other transactions.




                                       26
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Combatant Command
Inspector General, U.S. Joint Forces Command

Other Defense Organizations
Director, Defense Finance and Accounting Service

Non-Defense Federal Organization
Office of Management and Budget
Government Accountability Office

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security, and Foreign Affairs,
  Committee on Oversight and Government Reform

                                          27
Defense Finance and Accounting Service
Indianapolis Comments




                      29
Final Report
 Reference




Deleted




               30
31
32
33
34
35
Defense Finance and Accounting Service
Arlington Comments




                      36
37
38
Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Defense Financial and Auditing Service prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Paul J. Granetto
Patricia A. Marsh
Edward A. Blair
Laura J.S. Croniger
Chin-feng Herrod
Joanna B. Sokolowski
Dharam V. Jain
E. Ellen Kleiman-Redden
